App. 1
EXHIBIT A
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
NO. 03-18-00649-CV
The State Bar of Texas, Appellant
v.
Robert J. Wilson, Appellee
FROM THE DISTRICT COURT OF
TRAVIS COUNTY, 200TH JUDICIAL DISTRICT
NO. D-l-GN-18-004216,
HONORABLE DON R. BURGESS,
JUDGE PRESIDING
MEMORANDUM OPINION
(Filed Mar. 20, 2019)
This is an appeal from an order of the district
court of Travis County overruling a plea to the juris­
diction. Appellant is the State Bar of Texas (State Bar)
and appellee is Robert J. Wilson.
In 2018, Wilson filed an unsworn declaratory judg­
ment suit against the State Bar claiming that a 1994
letter by which he purportedly resigned from the prac­
tice of law was a forgery. By his suit, Wilson sought de­
claratory relief and actual damages as well as punitive
damages. In response, the State Bar filed an unsworn
plea to the jurisdiction challenging Wilson’s petition,

App. 2
asserting, among other things, that Wilson’s suit was
barred by sovereign immunity. Neither party offered
jurisdictional evidence. We will reverse the order and
render judgment dismissing Wilson’s cause of action
for want of jurisdiction.
When a plea to the jurisdiction challenges the
pleadings, the court determines whether the pleader
has alleged facts that affirmatively demonstrate the
court’s jurisdiction. If the pleadings affirmatively ne­
gate the existence of jurisdiction, then the plea to the
jurisdiction may be granted without allowing the plain­
tiff an opportunity to amend. Texas Dep’t of Parks &
Wildlife v. Miranda, 133 S.W.3d 217, 226-27 (Tex.
2004).
Wilson pleaded that in 1990 his law license was
suspended for three years. During the suspension, Wil­
son was involved in litigation with his former associ­
ates. One result of his participation in that litigation
was that the court found him in violation of the sus­
pension order and imposed a fine.
In 1994, the State Bar received a letter supposedly
signed by Wilson resigning from the practice of law.
Thereafter, the State Bar listed Wilson as “resigned
pending disciplinary action.” Wilson alleged that the
letter was not authentic.
Wilson alleged further that in 2012, seeking to ob­
tain an Arizona law license, he wrote the State Bar re­
questing it to certify that he was in good standing in
Texas and inquiring what steps were needed to perfect
the request. The State Bar responded that Wilson

App. 3
should pay the outstanding fine and file a petition for
re-instatement. Wilson alleged that he “completed this
process,” but that the State Bar still refused to change
his standing based upon the 1994 letter of resignation.
Wilson avowed further that the State Bar ignored his
several requests to investigate or determine whether
the 1994 letter of resignation was authentic.
Wilson pleaded further that in 2017, when he was
a candidate for the Arizona Senate, a local newspaper
published a story that he had resigned from the Texas
Bar “in lieu of disciplinary action.” He alleged that the
news story was “damaging” to his campaign for the
Senate and that such damage was proximately caused
by the State Bar’s refusal to investigate his requests
concerning the alleged resignation and its refusal to
correct his standing.
By way of relief, Wilson requested the court to de­
clare that the letter of resignation was a forgery; that
the court order the State Bar to disregard the said let­
ter; that the court determine the State Bar had no
other ground to continue to “suspend his license”; and
that the court order that his law license be reinstated
and that he be certified as a member in good standing.
Wilson prayed for up to $99,000 in actual damages in
addition to punitive damages for the State Bar’s al­
leged negligence and willful conduct.
Sovereign immunity from suit defeats a trial
court’s subject matter jurisdiction. Id. at 225-26. The
State Bar is a governmental agency that is entitled to
the protection afforded by sovereign immunity. Doe v.

App. 4
Board ofDirs. of the State Bar of Tex., No. 03-15-00007CV, 2015 WL 6656216, at *2 (Tex. App.—Austin Oct.
27, 2015, pet. denied) (mem. op.); Laubach u. State Bar
of Tex., No. 03-00-00282-CV, 2000 WL 1675701, at *2
(Tex. App.—Austin Nov. 9,2000, no pet.) (mem. op.); see
Tex. Gov’t Code § 81.011(a) (describing State Bar as
“an administrative agency of the judicial department
of government”).
Wilson sought a declaratory judgment from the
district court that the 1994 letter of resignation was a
forgery. The Uniform Declaratory Judgment Act, how­
ever, is not a general waiver of sovereign immunity.
Texas Parks & Wildlife v. Sawyer Tr., 354 S.W.3d 384,
388 (Tex. 2011) (citing Tex. Civ. Prac. & Rem. Code
§ 37.006; City of El Paso v. Heinrich, 284 S.W.3d 366,
373 n.6 (Tex. 2009)). Rather, the Act only waives sover­
eign immunity in those cases challenging the viability
of statutes or ordinances. Heinrich, 284 S.W.3d at 377.
Although the Act waives immunity in particular cases,
Wilson’s request for a declaration that the 1994 letter
is a forgery does not fall within the scope of the express
waiver.
Wilson pleaded that the State Bar failed and re­
fused to investigate and make a determination whether
he had resigned from the State Bar. To the extent that
Wilson’s pleading may be construed as an ultra vires
claim, he has sued the wrong party. Ultra vires suits
cannot be brought against the state, which retains its
immunity, but must be brought against the state actors
in their official capacity. Id. at 373. And even if Wilson
had sued the proper parties, he has not complained of

App. 5
any State Bar conduct that would exceed its statutory
authority. See id. at 372 (to come within the ultra vires
exception, plaintiff “must allege and ultimately prove,
that the officer acted without legal authority or failed
to perform a purely ministerial act”).
Wilson claimed actual and punitive damages stem­
ming from the State Bar’s alleged negligence and will­
ful conduct. Wilson can neither recover money damages
by his declaratory-judgment suit, see Texas Nat. Res.
Conservation Comm’n v. IT-Davy, 74 S.W.3d 849, 860
(Tex. 2002), nor pursuant to the Texas Tort Claims Act.
The Tort Claims Act is not a general waiver of sover­
eign immunity. Instead, the Act waives immunity in
three general areas: use of publicly owned automobiles,
premises defects, and injuries arising out of conditions
or use of tangible personal property. See Tex. Civ. Prac.
& Rem. Code § 101.021; County of Cameron v. Brown,
80 S.W.3d 549, 554 (Tex. 2002). However, the Act does
not waive immunity for the negligent or wrongful use
of information contained in papers and documents.
Laubach, 2000 WL 1675701, at *1 (citing Dallas County
v. Harper, 913 S.W.2d 207, 207-08 (Tex. 1995); Uni­
versity of Tex. Med. Branch at Galveston v. York, 871
S.W.2d 175,177 (Tex. 1994)).
The order is reversed and judgment is here ren­
dered dismissing Wilson’s cause of action for want of
jurisdiction.
Bob E. Shannon, Justice

App. 6
Before Justices Goodwin, Baker, and Shannon*
Reversed and Rendered
Filed: March 20, 2019
* Before Bob E. Shannon, Chief Justice (retired), Third
Court of Appeals, sitting by assignment. See Tex. Gov’t
Code § 74.003(b).

App. 7
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
JUDGMENT RENDERED
MARCH 20, 2019

NO. 03-18-00649-CV
The State Bar of Texas, Appellant
v.
Robert J. Wilson, Appellee
APPEAL FROM THE 200TH DISTRICT
COURT OF TRAVIS COUNTY
BEFORE JUSTICES GOODWIN,
BAKER, AND SHANNON
REVERSED AND RENDERED OPINION BY JUSTICE SHANNON
This is an appeal from the interlocutory order signed
by the trial court on September 19, 2018. Having re­
viewed the record and the parties’ arguments, the
Court holds that there was reversible error in the or­
der. Therefore, the Court reverses the trial court’s in­
terlocutory order and renders judgment dismissing
appellee’s cause of action for want of jurisdiction. Ap­
pellee shall pay all costs relating to this appeal, both
in this Court and the court below.

App. 8
EXHIBIT B
NO. D-l-GN-1 8-004216
ROBERT J. WILSON, § IN THE DISTRICT COURT
Plaintiff
§
v.

§

THE STATE
BAR OF TEXAS,
Defendant

§
§
TRAVIS COUNTY, TEXAS
§

§ 200th JUDICIAL DISTRICT

ORDER ON DEFENDANT’S PLEA TO
THE JURISDICTION and 91a MOTION
On September 19, 2018, came to be heard Defend­
ant’s Plea to the Jurisdiction and Rule 91a Motion. Af­
ter considering the Plea and Motion and the Response,
and argument of counsel and parties, the Court finds
the Plea and Motion should be DENIED
Signed this the 19th day of September. 2018.
/s/ [Illegible]
Presiding Judge

App. 9
EXHIBIT C
COURT OF APPEALS
Third District of Texas
p.o. box 12547, Austin, Texas 78711-2547
www.txcourts.gov/3rdcoa.aspx
(512) 4634 733
JEFF L. ROSE, CHIEF JUSTICE
MELISSA GOODWIN, JUSTICE
THOMAS J. BAKER, JUSTICE
GISELA D. TRIANA, JUSTICE
CHARI L. KELLY, JUSTICE
EDWARD SMITH, JUSTICE

JEFFREY D. KYLE, CLERK

May 3, 2019
Mr. Matthew J. Greer
Office of the Chief
Disciplinary Counsel
P. O. Box 12487
Austin, TX 78711
* DELIVERED
VIA E-MAIL *

Mr. Robert J. Wilson
2151 N. Avenida Tabica
Green Valley, AZ 85614
* DELIVERED
VIA E-MAIL *

RE: Court of Appeals Number: 03-18-00649-CV
Trial Court Case Number: D-l-GN-18-004216
Style: The State Bar of Texas
v. Robert J. Wilson

App. 10
Dear Counsel:
Appellee’s motion for rehearing and motion for en
banc reconsideration were denied by this Court on the
date noted above.
Very truly yours,
JEFFREY D. KYLE, CLERK
BY: /s/ E. Talerico
Liz Talerico, Deputy Clerk

App. 11
No. 03-18-00649-CV

In The Court of Appeals
Third District of Texas
Austin, Texas

THE STATE BAR OF TEXAS,
APPELLANT
V.
ROBERT J. WILSON,
APPELLEE
Appealed from the 200th District Court
Of Travis County, Texas
Honorable Don R. Burgess, Judge Presiding
APPELLEE’S MOTION FOR REHEARING
ROBERT J. WILSON, APPELLEE
2151 N. Avenida Tabica
Green Valley, AZ 85614
Tel: (520) 982-1658
Email: bobbysvisa@gmail.com

i

App. 12
TABLE OF CONTENTS
PAGE

INDEX OF AUTHORITIES.........
ARGUMENT AND AUTHORITIES

3

4

1. The State Bar does not have Immunity from
Lawsuits by its members, past or present... 4
2. The State Bar and this panel’s opinion has
deprived Wilson of due process and equal
protection of the law
5
PRAYER
6
CERTIFICATES OF COMPLIANCE AND SER­
VICE ......................................................................... 7
[3] INDEX OF AUTHORITIES
CASES
Fed. Sign,
952 S.W. 2d404 (Tex 1997)................

6

Ben Bolt,
212 S.W.3rd 323, 326-328 (Tex 2006)

5

O’Quinn v. State Bar of Tex.
763 S.W.2nd 397 (Tex 1988)..............

6

Keller u. State Bar of California
496U.S.1,10-13(1990).....................

6

STATUTES AND RULES

/

PAGE

PAGE

TEX. GOV. CODE, TIT.2 CHAP. 81.014

4,5

TEX. GOV. CODE, TIT.2 CHAP. 81.106

5

TEX. CONST. ART. 1, SECTION 19.....

5

App. 13
U.S. CONST., 14TH AMENDMENT.................

5

TEX. RULES DISC. PROC., SECTIONS 10.02

5

TEX. RULES APP. PROC. RULE 47.1..............
[4] No. 03-18-00649-CV
In The Court of Appeals
Third District of Texas
Austin, Texas
THE STATE BAR OF TEXAS,
APPELLANT
V.
ROBERT J. WILSON,
APPELLEE
Appealed from the 200th District Court
Of Travis County, Texas
Honorable Don R. Burgess, Judge Presiding

MOTION FOR REHEARING
ROBERT J. WILSON

App. 14
TO THE HONORABLE THIRD COURT OF AP­
PEALS:
Appellee, Robert J. Wilson, submits his Motion
for Rehearing. Robert J. Wilson will be referred to as
“Wilson” and Appellant will be referred to as “State
Bar.”
Wilson contends that great damage to the Rights
of State Bar members (Texas lawyers, past and pre­
sent) will occur if this Court’s subject Opinion is al­
lowed to become the applicable law of the State of
Texas. The harmed parties will have no judicial redress
route to confront their own State Bar for acts or omis­
sions [5] of malfeasance or misfeasance. In affect, the
members will be de-franchised by Court Opinion.
I. The State Bar does not have immunity
from lawsuits by its members, past or present.
The panel’s opinion provides a sweeping remedy
for the State Bar that invalidates the Texas Legisla­
tive’s clear language in establishing the State Bar Act.
The State Bar is a creation of the Texas Legislature
and Section 81.014 of the Texas Government Code, Ti­
tle 2, Chapter 81.014. It clearly states, “The State bar
may sue and be sued in its own name.”
The Texas Legislature saw fit at a later date to amend
that Act and expressly granted Immunity to certain
agents, employees, and representatives of the State
Bar. (Section 81.106). The Legislature did not include
the State Bar itself in its later grant of immunity and

App. 15
Section 81.014 is still controlling law in Texas. Wilson
clearly raised this point in his Brief before this Court,
and Rule 47.1 (Tex. Rules App. Proc.) requires this
Court of Appeals to “address every issue raised and
necessary to final disposition of the appeal.”
The State Bar of Texas is not taxpayer supported,
nor its employees public or state employees. Texas
Courts are directed to “look to the nature, purpose, and
powers” of an entity in order to determine if it is a gov­
ernmental agency that will enjoy governmental im­
munity. Ben Bolt, 212 S.W. 3d 323, 326-328 (Tex. 2006).
State Bar did not pass those judicial test requirements.
II. The State Bar and this panel’s opinion
have deprived Wilson of due process
and equal protection of the law.
[6] This Panel’s opinion in affect, denies Wilson of
due process of law and access to the Courts as guaran­
teed by the U.S. Constitution (14th Amendment) and
the Texas Constitution (Art. 1, Section 19),
Wilson now has no judicial redress against the
State Bar for his personal injuries caused by The State
Bar’s mishandling of the forged, so-called resignation
letter that was submitted to the Texas Supreme Court
in clear violation of Rule 10.02 of the Texas Rules of
Disciplinary Procedure. Those rules have the weight of
enacted state statutes. Fed. Sign, 951 S.W. 2d 404, 465
(Tex. 1997). O’Quinn v. State Bar of Tex. 763 S.W. 2d
397 (Tex. 1988).

App. 16
Wilson was required to obey said rules, but the
State Bar was not, a clear violation of the Texas and
U.S. Constitution requirement of equal protection of
the law. The State Bar is essentially a closed union
shop, thereby creating the requirement of equal pro­
tection and due process to be afforded to its members.
Kelly v. State Bar of California, 496 U.S. 1, 10-13
(1990).
PRAYER
The Court should grant this Motion for Rehearing,
vacate its opinion withdraw its judgment, and issue a
revised opinion and judgment consistent with The
Texas Government Code Title 2, Chapter 81.014, and
the Texas and U.S. Constitutions’ requirements of due
process and equal protection of the law.
Respectfully submitted,
/s/ROBERT J. WILSON, APPELLEE
2151 N. Avenida Tabica
Green Valley, AZ 85614
Tel: (520) 98201658
Email: bobbysvia@gmail.com

App. 17
[7] CERTIFICATE OF SERVICE
On March 23, 2019, this Motion was served by
electronic mail on Counsel for the State Bar.
/s/ROBERT J. WILSON, APPELLEE

CERTIFICATE OF COMPLIANCE
In compliance with the Tex. Rules of App. Proc.
9.4(i)(2), this Motion contains 918 words as counted by
MS WORD, word count utility, excluding the portions
of the Motion exempted by Rule 9.4(i)(l).
/s/ROBERT J. WILSON, APPELLEE

App. 18
EXHIBIT D
FILE COPY
RE: Case No. 19-0417
COA#: 03-18-00649-CV
STYLE: WILSON v.
THE STATE BAR OF TEX.

DATE: 8/30/2019
TC#: D-l-GN-18-004216

Today the Supreme Court of Texas denied the pe­
tition for review in the above-referenced case.
DISTRICT CLERK TRAVIS COUNTY
TRAVIS COUNTY COURT
P. O. BOX 679003
AUSTIN, TX 78767
* DELIVERED VIA E-MAIL *

App. 19
No.
In The Supreme Court of Texas
ROBERT J. WILSON,
Petitioner
V.
The STATE BAR of TEXAS,
Respondent
Appealed From the Third Court of Appeals,
Cause Number: 03-18-00649-CV
From an Appeal from the 200th District Court
Of Travis County, Texas,
Cause No. D-l-GN-18-004216
Honorable Don R. Burgess, Judge Presiding
PETITION FOR REVIEW
ROBERT J. WILSON,
Petitioner, In Propria Persona
2151 N. Avenida Tabica
Green Valley, AZ 85614
Tel: (520) 982-1658
Email: bobbysvisa@gmail.com

App. 20
[ii] IDENTITY OF PARTIES AND COUNSEL
Petitioner:

Robert J. Wilson,
In Propria Persona
2151 N. Avenida Tabica
Green Valley, AZ 85614
(520) 982-1658
bobbvsvisa@gmail.com
At Trial and on Appeal

Respondent:

The State Bar of Texas
P.O. Box 12487
Austin, Texas 78711-2487

Respondent’s Trial
Counsel:

Linda A. Acevedo
Chief Disciplinary Counsel
State Bar of Texas

Respondent’s Appellate
Counsel:
Mr. Matthew J. Greer
Appellate Counsel for
State Bar of Texas
State Bar Card No. 24069825
(512) 427-4167
Email: mgreer@texasbar.com
[iii] TABLE OF CONTENTS
PAGE
IDENTITY OF PARTIES AND COUNSEL

mi

TABLE OF CONTENTS..............................

in

INDEX OF AUTHORITIES.........................

IV

STATEMENT OF THE CASE......................

IV

App. 21
STATEMENT OF JURISDICTION

vi

ISSUES PRESENTED.....................

Vll

STATEMENT OF FACTS...............

1

SUMMARY OF THE ARGUMENT

2

ARGUMENT AND AUTHORITIES

3

Issue 1. Did the Court of Appeals err in holding that
the Texas State Bar has a governmental immunity
defense to a Bar member’s claims?
Issue 2. Did the Court of Appeals err in their holding
that Wilson’s claims for a Declaratory Judgment were
barred by governmental immunity, thereby effectively
depriving him of Due Process, Access to the Courts,
and Equal Protection of the Law?
Issue 3. Does the Texas Supreme Court have the duty
and obligation to control and exercise oversight of the
activities of the Texas State Bar and intervene when
necessary to prevent injustice?
Issue 4. Does Wilson have the right to bring before
this Supreme Court the denial of his Motion For Sum­
mary Judgment because as a matter of law he carried
his burden of proof in the Trial Court and the Court of
Appeals has now created a final judgment in this case?
CONCLUSION AND PRAYER FOR RELIEF

8

APPENDIX........................................................

8

App. 22
[iv] INDEX OF AUTHORITIES
CASES

PAGE

Fed. Sign, 952 S.W. 2d404 (Tex 1997).................

6

Ben Bolt, 212 S.W.3rd 323, 326-328 (Tex 2006)....

7

In re Ruffalo, 390 U.S. 544 (1968).......................

6

Keller u. State Bar of California, 496 U.S.l, 1013(1990)............................................................

6

Wasson Interests ltd. V. City of Jacksonville, 489
S.W. 427 (Tex 2018)..........................................

7

STATUTES AND RULES

PAGE

TEX. GOV. CODE, TIT.2 CHAP. 81.014 - .017....

2,5

TEX. GOV. CODE, TIT.2 CHAP. 81.106..............

5

TEX CIV. REM. CODE, Title 5, Section 101.001
6

(3)

TEX CIV. REM. CODE, Section 37.006(b)..........

3,

TEX. CONST. ART. 1, SECTION 19....................

6

U.S. CONST., 14th AMENDMENT......................

6

TEX. RULES DISC. PROC., SECTIONS 10.01 10.05...................................................................

6

STATEMENT OF THE CASE
Nature of the Case:
Petitioner (Wilson), a long time resident of Ari­
zona, filed a civil suit against Respondent, the State
Bar of Texas, in the 200th District Court of Travis
County, Texas for a Declaratory Judgment (for the

App. 23
return of his suspended Texas Law License No.
21718300) and for money damages for libel.
Respondent (State Bar) replied by filing a Plea to
the Jurisdiction combined with a 91a Motion to Dis­
miss and Original Answer.
[v] Wilson filed a Response to the State Bar’s Plea
and 91a Motion and filed a Sworn Motion for Summary
Judgment, with his affidavit attached stating “That he
had never resigned from the Texas State Bar, nor had
he sent a letter of resignation to the State Bar”. The
State Bar filed an unsworn response to Wilson’s Mo­
tion for Summary Judgment stating Wilson had sent
them a letter of resignation in 1994 that they submit­
ted said letter to the Texas Supreme Court who ac­
cepted it and the State Bar’s Motion at face value and
Adjudged Wilson as having effectively “resigned in lieu
of disciplinary proceedings in 1994”.
The two Parties agreed the Trial Court could hear
and determine all pending Motions at same time.
Disposition in the trial:
The Trial Court heard the Parties’ Motions in the
200th District Court of Travis County, Don R. Burgess
presiding. The court denied the Motions of both Parties
in open court. (App. “A”).
The State Bar of Texas filed an interlocutory ap­
peal from the denials of their Plea and Dismissal Mo­
tions. Wilson could not appeal the Denial of his

App. 24
Summary Judgment Motion because the case was still
active and no final judgment had been entered.
[vi] Disposition in the Court of Appeals:
The Third Court of Appeals, in Austin, Texas, with
Justices: Goodwin, Baker, and Shannon, presiding, in
Cause No. 03-18-00649-CV reversed the trial court’s
decision in an Opinion by Justice Shannon. It granted
the State Bar’s Plea to the Jurisdiction on the grounds
that the State Bar has total governmental immunity
from lawsuits and dismissed Wilson’s lawsuit with
costs assessed against him. (App. “B”)
Wilson filed timely Motions for Rehearing and for
En Banc Reconsideration and the Court of Appeals de­
nied Wilson’s Motions on May 3rd, 2019. (App. “C”)
STATEMENT OF JURISDICTION
The Supreme Court has Jurisdiction in this case
pursuant to Texas Government Code Section 22.001
(a)(6) (West 2004) because the errors of the appellate
court are of such importance to the jurisprudence of
this State that they require correction and involve the
legal affect and interpretations of two State Statutes:
{Tex. Gov’t. Code, Section 81.011 and Tex. Civ. Prac.
Rem. Code, Section 37.002 (b)};
Furthermore, Section 22.001 (d), Tex. Gov’t. Code,
applies because it empowers the Supreme Court with
the authority on affidavit to ascertain the matters of

App. 25
fact that are necessary to the proper exercise of its ju­
risdiction;
[vii] The Supreme Court has Administrative Control
over the Texas State Bar and therefore over allegations
of misfeasance or malfeasance in the performance of
the State Bar’s statutory duties {Texas Gov’t. Code,
Section 81.011 (c)}.
ISSUES PRESENTED
Issue 1.

Did the Court of Appeals err in holding that
the Texas State Bar has a governmental im­
munity defense to a Bar member’s claims?

Issue 2. Did the Court of Appeals err in their hold­
ing that Wilson’s claims for a Declaratory Judgment
was barred by governmental immunity, thereby effec­
tively depriving him of Due Process, Access to the
Courts, and Equal Protection of the Law?
Issue 3. Does the Texas Supreme Court have the
duty and obligation to control and exercise oversight of
the activities of the Texas State Bar and intervene
when necessary to prevent injustice?
Issue 4. Does Wilson have the right to bring before
this Supreme Court the trial court’s denial of his Mo­
tion For Summary Judgment because as a matter of
law he carried his burden of proof in the Trial Court
and the Court of Appeals has now created a final judg­
ment in this case by their Decision?

App. 26
Wilson’s Issues in his Motion for Rehearing
that were presented to, and denied by,
the Court of Appeals:
1.

The State Bar does not have Immunity
from Lawsuits by its members, past or
present.

2.

The State Bar and this panel’s opinion
has deprived Wilson of due process and
equal protection of the law.
[1] STATEMENT OF FACTS

The Opinion of the Third Court correctly states
the nature of the case, however, Wilson disagrees with
the Court’s characterizations of the facts and law re­
lied on by him. These matters are addressed, in turn,
in this Petition.
Wilson was licensed in 1973 by the State Bar of
Texas to practice law. He practiced law without inci­
dent until June of 1990 when he entered into a volun­
tary suspension of his law license while he completed
a three-year probated sentence un-related to his law
practice. His two associates entered his locked law of­
fice at night and took all the client files and set up their
own law practice one block away. Wilson sued them for
breach of their employment contract and they enlisted
the Texas State Bar to file contempt charges against
Wilson for trying to collect fees while his law license
was suspended. They prevailed in their efforts and Wil­
son was held in contempt by a District Court in Fort

App. 27
Worth, Texas and fined. He later paid in full that fine
and that case was dismissed.
In March of 1993 the criminal court formally dis­
missed the probated criminal case involving Wilson
and he relocated his residence to Arizona in early 1994
and became a professor of law at a Phoenix College
District. Wilson had never received any notice from the
State Bar of any unresolved disciplinary matters pend­
ing against him in Texas before or after he moved from
Texas.
In 2012 Wilson registered to take the Arizona Bar
Exam and requested the State Bar of Texas issue him
a Certificate of Good Standing.
[2] The Texas State Bar refused, stating he had re­
signed and supplied Wilson with a copy of his so-called
letter of resignation that they had submitted to the
Texas Supreme Court. Wilson immediately contacted
the Texas State Bar and reported that he had never
resigned and the letter they used for his resignation
was a forgery, which he never authorized, nor signed,
or was even aware of, and Wilson demanded an inves­
tigation to clear his standing with the State Bar. The
Texas State Bar ignored his demands and in 2018 Wil­
son filed this suit for redress and return of his Texas
law license.
SUMMARY OF THE ARGUMENT
The trial judge in this matter correctly saw this
case as it really exists. Some unknown person

App. 28
hoodwinked the Texas State Bar in July of 1994 and
the Bar mislead this Supreme Court into punishing an
innocent Member of the Bar with a misleading Resig­
nation Motion.
The Texas State Bar now has decided to seek the
protection of Governmental Immunity rather than ad­
mitting their mistake and returning Wilson’s Texas
law license.
The State Bar violated their written Member Res­
ignation Regulations in their rush to deprive Wilson of
his law license and mislead this Supreme Court.
The State Bar does not have governmental im­
munity under the express terms of Tex. Gov’t Code Sec­
tion 81.014, and, since a governmental entity must be
made a Party in a Declaratory Judgment case under
the express meaning of [3] Tex. Civ. Prac. Rem. Code
Section 37.006(b), which means immunity, has been
waived.
Wilson filed a Summary Judgment proceeding be­
low in which he attached his sworn affidavit stating
he had not resigned and never authorized, wrote, or
had knowledge of the so-called letter of resignation.
The State Bar did not defeat Wilson’s Motion for Sum­
mary Judgment as a matter of law and therefore he is
entitled to judgment for the return of his law license
notwithstanding the actions of the Court of Appeals be­
cause their decision was a final order in this case.
Wilson’s Rights of due process, access to the courts,
and equal protection of the law must be protected

App. 29
under this set of facts. Wilson respectfully requests
that the Supreme Court grant review.
ARUGMENT AND AUTHORITIES
A. The Court of Appeals erred in their holding that
the Texas State Bar has Governmental Immunity.
B.

The Court of Appeals erred in their holding that
Wilson’s request for a Declaratory Judgment was
barred by Governmental Immunity, thereby effec­
tively depriving him of Due Process, Access to the
Courts, and Equal Protection of the Law?

C.

The Supreme Court has the duty and obligation to
control and exercise oversight of the activities of
the Texas State Bar and to intervene when neces­
sary to prevent injustice.

[4] D. Does Wilson have the right to bring before
this Supreme Court the trial court’s denial of his
Motion For Summary Judgment because as a mat­
ter of law he carried his burden of proof in the
Trial Court and the Court of Appeals has now cre­
ated a final judgment in this case by their Deci­
sion?
These four issues of Texas law will be discussed
together since they all interrelate and concern the ac­
tions of the State Bar in their handling of Wilson socalled resignation,
This appeal is of fundamental importance to the
legal relationship that exists between the State Bar
and its Members, both past and present.

App. 30
Assuming the truth of Wilson’s pled allegations of
never resigning from the State Bar, (CR at 4-9) which
is the standard rule in appellate cases such as this, the
misleading and fabricated Motion of Resignation pre­
sented by the State Bar for purposes of disbarring Wil­
son should shock the conscious of the Members of this
Court. To allow such behavior to be accepted would for­
ever create a dark stain on the relationship of the State
Bar with its members. The State Bar did not deny that
more documents were needed from a bar member such
as Wilson before a proper Motion for Resignation could
be submitted to the Supreme Court for action. And,
that assumes the bar member actually desires resign­
ing, which is in dispute in this case. When confronted
with the two letters from Wilson denying his resigna­
tion (Trial App. 77-78, 81-82), the State Bar could and
should have handled the dispute internally, but choose
to ignore Wilson’s allegations.
[5] Now, finding itself in litigation, the State Bar
wants to enjoy court-created immunity for its mishan­
dling of Wilson’s case.
The issue is simple: Does the Texas Rules of Disci­
plinary Procedure and Conduct apply equally to the
State Bar and its Staff, or can the State Bar simply
ignore those Rules because it can claim immunity if
their actions are later challenged?
Wilson contends the State Bar is bound by the
clear provisions of its Enabling Act, the State Bar Act,
and it was never intended by the Texas Legislature to
give the State Bar immunity from law suits, but only

App. 31
to protect the employees and staff of the State Bar from
personal liability. (App. “E” Tex.; Gov. Code, Title 2,
Chapter 81.014 and 81.106).
Since its creation, the State Bar could always sue
and be sued in its own name. It is a public corporation
and is totally self-supporting and does not create any
liability or debt obligations for the state (App. “E” Sect.
81.017); nor is it financially supported by the State’s
taxpayers.
The State Bar filed its own “Motion to Resign”
on_behalf of Wilson in July of 1994 with the Supreme
Court and failed to disclose to the Supreme Court that
Wilson had not complied with the proper method of
resignation from the State Bar and Wilson’s probated
criminal case, the basis for his law license suspension,
which did not involve any of Wilson’s clients, had been
formally dismissed by that court in March of 1993
thereby misleading the Supreme Court into believing
Wilson was a convicted felon.
[6] Wilson’s lawsuit contends the State Bar did not
comply with its own Rules that required a Member to
prepare and file a formal Motion to Resign”. Nowhere
do those Rules authorize any other person to prepare
and file such an instrument on Wilson’s behalf Those
Rules were designed to protect both parties involved.
Wilson was in effect disbarred without his knowledge
or participation, which is clearly a violation of his
rights of due process of law. In re Ruffalo, 390 U.S. 544
(1968) the U.S. Supreme Court stated that State

App. 32
disbarment actions must afford due process. See also,
Tex. Const., Article I, Section 19, and the 14th Amend­
ment to the U.S. Constitution on due process require­
ments. See also, Keller v. State Bar of California, 496
U.S. 1,10-13 (1990).
The State Bar does not qualify as a “government
unit” as described in Tex. Civ. Prac. & Rem. Code, Title
5, Section 101.001(3) [App. “F”].
The State Bar, even if it is a government unit, was
certainly guilty of nonperformance of an act that dam­
aged Wilson because the State Bar did not follow its
own Rules of Disciplinary Procedure. (Section 10.0110.05) [App. “G”].
The State Bar’s former legal counsel, now de­
ceased, even voiced doubts of her own in her prepara­
tion of the Motion for Resignation and its sufficiency
(CR at 89). A state official’s acts are not acts of the
state if illegal or unauthorized, Federal Sign v. Texas
Southern University, 951 S.W. 2d 404, 465 (Tex.
1997).
Texas Courts look to the nature, purpose and powers
in determining if the agency is a governmental entity
that will enjoy sovereign or governmental immunity.
Ben Bolt v. Tex. Political Subdivisions, 212 S.W. 3d 323
(Tex.2006).
[7] The Texas legislature is best positioned to cre­
ate sovereign immunity because that is within their
jurisdiction in order to protect their policymaking

App. 33
function. Wasson Interests Ltd. u. City of Jacksonville,
489 S.W. 3d 427 (Tex. 2018). They purposefully did not
grant the State Bar immunity from lawsuits when
they acted to protect the employees and staff of the
State Bar.
The trial court clearly saw the injustice involved
in this case and saw the harm to Wilson and the State
Bar’s failure to obey its own rules.
Wilson’s Motion for Summary Judgment filed un­
der oath and the unsworn Response of the State Bar to
said Motion leaves no doubt as to the actual facts of
this case and this Court is requested to review the
Trial Court’s denial (App. “H”) of said Motion for Sum­
mary Judgment to the extent that its orders the State
Bar to return Wilson’s bar license and GRANT such re­
lief and return his status to with the State Bar to good
standing.
CONCLUSION AND PRAYER
Therefore, Premises Considered, Petitioner Wilson
requests this Honorable Supreme Court grant his
Petition for Review since serious and fundamental
questions of law concerning the existence or not of
immunity from lawsuits exist concerning the entity
known as the Texas State Bar. And, furthermore, the
State Bar’s methods of operations in their handling of

App. 34
a bar members’ resignation needs to be addressed and
clarified.
[8]

Dated: May 16, 2019
Respectfully submitted,
/s/ Robert J. Wilson
Robert J. Wilson, Petitioner
2151 N. Avenida Tabica,
Green Valley, AZ 85614
(520) 982-1658
bobbysvisa@gmail.com

CERTIFICATE OF SERVICE
In accordance with the Texas Rules of Appellate
Procedure I certify that a copy of this Petition for Re­
view was served on Respondent by electronic email by
serving Matthew J. Greer, appellate counsel of Record
on this 16th day of May 2019.
/s/ Robert J. Wilson
Robert J. Wilson, Petitioner

App. 35
APPENDIX
A. Order of Trial Court appealed from, dated:
09-19-2018
B.

Opinion of Court of Appeals, dated:
03-20-2019

C. Judgment of the Court of Appeals, dated:
03-20-2019
D. Court of Appeals’ Denial of Appellee’s motion
for rehearing and en banc reconsideration:
dated: 05-03-2019
E.

State Statutes Tex. Gov. Code Sections
81.106, 81.011, 81.014, & 81.017

F.

TEX. CIV. REM. CODE Chapter 101,
Sections 101.001

G. TEX R. DISC. PROC. 10.01,10.02,10.05, &
11.03
H. Order of Denial on Wilson’s M. S. J., Dated
09-19-2018.

App. 36
EXHIBIT E
FILE COPY
RE: Case No. 19-0417
COA#: 03-18-00649-CV
STYLE: WILSON v.
THE STATE BAR OF TEX.

DATE: 9/10/2019
TC#: D- 1-GN-18-004216

Petitioner’s motion for rehearing was this day filed
in the above styled and numbered case.
DISTRICT CLERK TRAVIS COUNTY
TRAVIS COUNTY COURT
P. O. BOX 679003
AUSTIN, TX 78767
* DELIVERED VIA E-MAIL *

r

App. 37
FILE COPY
RE: Case No. 19-0417
COA#: 03-18-00649-CV
STYLE: WILSON v.
THE STATE BAR OF TEX.

DATE: 10/11/2019
TC#: D-l-GN-18-004216

Today the Supreme Court of Texas denied the mo­
tion for rehearing of the above-referenced petition for
review.
MR. JEFFREY D. KYLE
CLERK, THIRD COURT OF APPEALS
209 WEST 14TH STREET, ROOM 101
AUSTIN, TX 78701
* DELIVERED VIA E-MAIL *

App. 38
No. 19-0417
In The Supreme Court of Texas
ROBERT J. WILSON,
Petitioner
V.
The STATE BAR of TEXAS,
Respondent
On Review From the Third Court of Appeals,
Cause No a 03-18-03649-CV
From an Appeal from the 200th District Court
Of Travis County, Texas,
Cause No. D-l-GN-18-004216
Honorable Don R. Burgess, Judge Presiding
PETITIONER’S MOTION FOR REHEARING
ROBERT J. WILSON,
Petitioner, In Propria Persona
2151 N. Avenida Tabica
Green Valley, AZ 85614
Tel: (520) 982-1658
Email: bobbvsvisa@gmail.com

App. 39
[ii] IDENTITY OF PARTIES AND COUNSEL
Petitioner:

Robert J. Wilson,
In Propria Persona
2151 N. Avenida Tabica
Green Valley, AZ 85614
(520) 982-1658
bobbvsvisa@gmail. com
At Trial and on Appeal

Respondent:

The State Bar of Texas
P.O. Box 12487
Austin, Texas 78711-2487

Respondent’s Trial
Counsel:

Linda A. Acevedo
Chief Disciplinary Counsel
State Bar of Texas

Respondent’s Appellate
Counsel:
Mr. Matthew J. Greer
Appellate Counsel for
State Bar of Texas
State Bar Card No. 24069825
(512) 427-4167
Email: mgreer@texasbar.com
[iii] ISSUES PRESENTED
Issue 1. Is it now the law in Texas that a State Bar
Member has no rights to Due Process, Access to the
Courts, and Equal Protection of the Law when he is
stripped of his Texas Bar License in a dispute with the
State Bar of Texas?

App. 40
Issue 2. Has the Texas Supreme Court abandoned
it’s legislative duties and obligations to control and
exercise oversight of the activities of the Texas State
Bar?
TO THE HONORABLE JUSTICES OF
THE SUPREME COURT OF TEXAS
Petitioner (Wilson), filed a civil suit against Re­
spondent, the State Bar of Texas, in the 200th District
Court of Travis County, Texas for a Declaratory Judg­
ment for the return of his suspended Texas Law Li­
cense No. 21718300.
Respondent (State Bar) replied by filing a Plea to
the Jurisdiction combined with a 91a Motion to Dis­
miss and Original Answer. Wilson filed a Response and
filed a Sworn Motion for Summary Judgment, with
his affidavit attached stating “That he had never re­
signed from the Texas State Bar”. The State Bar filed
an unsworn response to Wilson’s Motion for Summary
Judgment stating they (the Texas State Bar) had filed
their own Motion of Resignation in the Texas Supreme
Court on Wilson’s behalf which was accepted as true by
that Court.
[iv] In other words, the Supreme Court of Texas,
which by legislative mandates; supervises and controls
the official activities of the Texas State Bar, got hood­
winked by the State Bar and they have now been given
official permission by these Appellate Court Decisions
in this Case to do the same to other lawyers they may
choose to disbar.

App. 41
Wilson was given no advance notice by the Texas
State Bar that they were going to strip him of his Bar
License in 1994. The law in Texas and the United
States clearly states that a defendant in a civil case
has a right to notice of a lawsuit before a judgment can
be enforced against them. Peralta v. Heights Med. Ctr.,
Inc. 485 U.S. 80, 84 (1988); Caldwell u. Barnes, 154 S.
W. 3d 93, 96-97 (Tex. 2004); Fidelity and Guar. Ins. Co.
v. Drewery Const. Co., Inc. 186 S. W. 3d 571, 574 (Tex.
2006).
For Wilson to prevail on a Petition for Review, he
must show he has a good claim which he was prevented
from presenting in court by the wrongful act of a re­
spondent without fault on his own part. (See Caldwell
v. Barnes, supra 154 S. W. 3d at 96). Wilson carried his
burden of proof in the Courts below on those issues.
The Supreme Court has Administrative Control
over the Texas State Bar-and therefore over allega­
tions of misfeasance or malfeasance in the perfor­
mance of the State Bar’s statutory duties {Texas Gov’t.
Code, Section 81.011 (c)}.
[v] If this Honorable Court does not accept Peti­
tioner’s Petition for Review and re-open this dispute,
then, the Third Court of Appeal’s Decision in this Case
will establish new law in this State that a lawyer can
be disbarred without due process of law or equal pro­
tection of our laws and the Supreme Court of Texashas given up its official legislated duties to police the
enforcement of the State Bar of Texas Rules of Disci­
plinary Procedure 10.01,10.02,10.05, & 11.03.

App. 42
Petitioner Prays this Court re-consider its
Denial of Review and grant Petitioner’s Review
Petition.
Respectfully submitted,
Dated September 10, 2019
/s/ Robert J. Wilson
Robert J. Wilson,
In Propria Persona
2151 N. Avenida Tabica
Green Valley, AZ 85614
(520) 982-1658
bobbvsvisa@gmail.com

CERTIFICATE OF SERVICE ON RESPONDENT
A true copy of this Motion has been served on
Respondent’s Appellate Counsel
below via email this date.
Mr. Matthew J. Greer
Appellate Counsel for
State Bar of Texas
State Bar Card No. 24069825
(512) 427-4167
Email: mgreer@texasbar.com

App. 43
/s/ Robert J. Wilson
Robert J. Wilson,
2151 N. Avenida Tabica
Green Valley, AZ 85614
(520) 982-1658
bobbysvisa@gmail.com
word count: 789

App. 44
EXHIBIT F
Texas Government Code, Title 2, Judicial Branch
Subtitle G. ATTORNEYS
Chapter 81. STATE BAR
Subchapter A. General Provisions
Sec. 81.011. GENERAL POWERS, (a) The state
bar is a public corporation and an administrative agency
of the judicial department of government.
Sec. 81.014. SUITS. The state bar may sue and
be sued in its own name.
Sec. 81.017. INDEBTEDNESS, LIABILITY, OR
OBLIGATION, (a) An indebtedness, liability, or obliga­
tion of the state bar does not:
(1) create a debt or other liability of the state
or of any entity other than the state bar or any succes­
sor public corporation; or
(2) create any personal liability on the part
of the members of the state bar or the members of the
board of directors or any authorized person issuing, ex­
ecuting, or delivering any evidence of the indebtedness,
liability, or obligation.
(b) The state bar may not create an indebted­
ness, liability, or obligation that cannot be paid from
the receipts for the current year unless approved by
referendum of all members of the state bar as provided
by Section 81.024.
Added by Acts 1987, 70th Leg, Ch. 148, Sec. 3.01, eff.
Sept. 1,1987.

App. 45
EXHIBIT G
10.01 Disciplinary Resignation
Any person licensed to practice law in the State of
Texas shall be permitted to file a motion for resigna­
tion in lieu of discipline, in a form promulgated by the
Commission, in the Supreme Court of Texas, attaching
thereto his or her Texas law license and permanent
State Bar membership card.
10.02 Response of Chief Disciplinary Counsel
The Chief Disciplinary Counsel shall, within twenty
days after service upon him or her of a motion for res­
ignation in lieu of discipline, file a response on behalf
of the State Bar (acting through the Commission) stat­
ing whether the acceptance of the resignation is in the
best interest of the public and the profession and set­
ting forth a detailed statement of the Professional Mis­
conduct with which the movant is charged. The movant
may, within ten days after service of such response,
withdraw the motion. If a motion to withdraw is not
timely filed, the detailed statement of Professional
Misconduct shall be deemed to have been conclusively
established for all purposes.
11.03 Burden of Proof
The petitioner has the burden of establishing by a
preponderance of the evidence that the best interests
of the public and the profession, as well as the ends of
justice, would be served by his or her reinstatement.

App. 46
The court shall deny the petition for reinstatement if
it contains any false statement of a material fact or if
the petitioner fails to meet the burden of proof.
10.05 Effect of Resignation
Any resignation under this part shall be treated
as a disbarment for all purposes, including client noti­
fication, discontinuation of practice, and reinstate­
ment.

App. 47
EXHIBIT H
CAUSE NO. 26214
THE STATE OF TEXAS §IN THE DISTRICT COURT
§ JOHNSON COUNTY, TEXAS
§

VS.
ROBERT J. WILSON

§ 18TH JUDICIAL DISTRICT

ORDER GRANTING SECOND AMENDED
MOTION FOR REMOVAL FROM PROBATION
(Filed Mar. 24,1993)
On this day came on to be considered Defendant,
ROBERT J. WILSON’S, Second Amended Motion for
Removal from Probation. The Court, having considered
said Second Amended Motion, and finding that De­
fendant, ROBERT J. WILSON, has complied with the
terms and conditions of the probation in accordance
with Article 42.12, Vernon’s Annotated Code of Crimi­
nal Procedure of Texas, including making restitution
and serving community service, and that Defendant
has now served more than one-half of the sentenced
imposed upon him by this Court, is of the opinion that
the Motion should be granted.
It is therefore ORDERED, ADJUDGED AND DE­
CREED that the sentence imposed on Defendant,
ROBERT J. WILSON, is hereby commuted to time
served, and Defendant, ROBERT J. WILSON, is dis­
charged from the sentence imposed by this Court and
is released from probation for all intents and purposes.

App. 48
It is further ORDERED that this case against De­
fendant, ROBERT J. WILSON, is in all things DIS­
MISSED.
IT IS SO ORDERED.
SIGNED this 24 day of March. 1993.
/s/ [Illegible]
JUDGE PRESIDING

'i

App. 49
EXHIBIT I
February 23, 2012
17th District Court Clerk
Tim Curry Criminal Justice Center
8th floor 401 West Belknap
Fort Worth, TX 76196
Re: Case # 17-128555-90
State Bar Assoc, vs. Robert John Wilson
Contempt Judgment Payment
Honorable Clerk,
On April 21, 1993 the Judge of the 17th District
found me in contempt of court and assessed at total of
$6,000.00 in fines against me in the above and entitled
civil case.
I have enclosed a Bank Check for that $6,000.00
to pay those fines in full.
Please note my payment of the $6,000.00 fines on
that particular court case’s records and please return
a receipt to me in the SASE enclosed for this payment.
Thank you very much for your assistance.
A copy of this letter and bank check is being sent
to State Bar of Texas.
Yours truly,
/s/ Robert John Wilson
Robert John Wilson

App. 51
No. 17-12835590
THE STATE BAR
OF TEXAS

§IN THE DISTRICT COURT

VS.

§ TARRANT COUNTY, TEXAS
§

ROBERT J. WILSON

§ 17TH JUDICIAL DISTRICT

JUDGMENT
On the 9th day of December, 1991, came on to be
heard the above-entitled and numbered cause. Peti­
tioner, the State Bar of Texas, appeared by and through
its attorney of record, Jana K. McCown, and the Re­
spondent, Robert J. Wilson, appeared and was repre­
sented by his attorney of record, Steven M. Smoot. All
matters of fact as well as matters of law were submit­
ted to the Court for determination.
The Court, based upon all the pleadings and pa­
pers on file in this case and the evidence and the law
applicable thereto, is of the opinion and so finds that
the material allegations of Petitioner’s Disciplinary Pe­
tition are true, and that the Petitioner, pursuant to the
State Bar Act, Title 2, Texas Gov’t Code, §81.001 et.
seq.. is entitled to the following Judgment. The Court
further finds that forgery, as alleged in the indictment
against Respondent, is a serious crime pursuant to Ar­
ticle X, Section 26 of the State Bar Rules. The Court
also finds that Respondent’s appeal is final, the man­
date having been issued on August 6, 1991, and that
Respondent’s criminal probation term of three (3) years
began on that date.

App. 52
IT IS THEREFORE ORDERED that Respondent,
Robert J. Wilson, be and is hereby actively -suspended
from the practice of law in the State of Texas for a pe­
riod of three (3) years pursuant to his conviction for
forgery, a felony involving moral turpitude, in the State
of Texas v. Robert J. Wilson, Cause No. 26,214, in the
18th Judicial District Court of Johnson County, Texas.
Active suspension shall begin on the December 9,1991,
and end on December 8, 1994. If Respondent’s felony
probation should be terminated, other than by revoca­
tion, prior to the expiration of three years, this Court
will entertain a motion made at that time to terminate
Respondent’s license suspension. Any motion made pur­
suant to this provision shall be served on the Office of
the General Counsel at RO. Box 12487, Austin, Texas
78711.
IT IS FURTHER ORDERED that the Respondent,
Robert J. Wilson, during said active suspension, is
hereby prohibited from practicing law in Texas, hold­
ing himself out as an attorney at law, performing any
legal services for others, accepting any fee directly or
indirectly for legal services, appearing as counsel or in
any representative capacity in any proceeding in any
Texas court or before any Texas administrative body,
or holding himself out to others or using his name,/in
any manner, in conjunction with the words “attorney,”
“attorney at law,” “counselor at law,” or “lawyer.”
It is further ORDERED that the Respondent im­
mediately notify in writing, any clients who have not
previously received notice of the interlocutory suspen­
sion, of this suspension. In addition to such notification,

App. 53
the Respondent is ORDERED to return all files, pa­
pers, monies and other property belonging to clients
and former clients in the Respondent’s possession to
the respective clients or former clients or to another
attorney at the client’s or former client’s request. Said
Respondent is ordered to file with this Court within
thirty (30) days of the date of this Judgment an affida­
vit stating that all clients designated above have been
notified of the Respondent’s suspension, and that all
files, papers, monies and other property belonging to
all clients and former clients have been returned as or­
dered herein.
It is further ORDERED that Respondent shall, on
or before thirty (30) days from the date of this Judg­
ment, notify in writing each and every justice of the
peace, judge, magistrate, and chief justice of each and
every court in which the Respondent has any matter
pending of the terms of this Judgment, the style and
cause number of the pending matter(s), and the name,
address and telephone number of the client(s) Re­
spondent is representing in that court.
It is further ORDERED that the said Robert J.
Wilson immediately surrender his Texas law license
and permanent State Bar Card to the Clerk of the Su­
preme Court of Texas.
IT IS ORDERED that the Clerk of this Court shall
forward a certified copy of the Disciplinary Petition on
file herein, along with a certified copy of this Judgment
to the Clerk of the Supreme Court of Texas, Price Dan­
iel, Sr. Building, 209 W. 14th St., Austin, Texas 78701,

App. 54
and to the Office of the General, Counsel of the State
Bar of Texas, P.O. Box 12487, Austin, Texas 78711.
IT IS FURTHER ORDERED that all costs of court
herein incurred shall be taxed against the Respondent,
Robert J. Wilson, for which the Clerk may have his ex­
ecution if they are not timely paid.
Signed this 7 day of January. 1992.
/s/ [Illegible]
JUDGE PRESIDING

App. 55
EXHIBIT J
8/8/2018 3:55 PM
Valve L. Price
District Clerk
Travis County
NO.
D-l-GN-18-004216 D-l-GN-18-1104246
Ruben Tamez
ROBERT J. WILSON §IN THE DISTRICT COURT
Plaintiff
§
vs.
§
200TH JUDICIAL DISTRICT

THE STATE BAR
OF TEXAS,

Defendant

§
§
§ TRAVIS COUNTY, TEXAS

PETITION FOR DECLARATORY
JUDGMENT AND FOR DAMAGES
Plaintiff, Robert J. Wilson, files this Petition for
Declaratory Judgment and For Damages against The
State Bar of Texas, Defendant, and in support, shows
the court as follows:
DISCOVERY
1. Plaintiff intends to conduct discovery under
Level 1 of Texas Rule of Civil Procedure and affirma­
tively pleads that this suit is governed by the expedited-actions process in Texas Rule of Civil Procedure
169 because Plaintiff does not seek monetary damages
in excess of $100,000.00.

App. 56
PARTIES AND SERVICE
2. Plaintiff is an individual residing in Green
Valley, Arizona.
3. Defendant, The State Bar of Texas, is a judicialstate agency whose office is in Travis County, Texas.
Defendant can be served in accordance with the Rules
of the State Bar of Texas Article II, Section 6 by serving
its Executive Director, Michele Hunter, The State Bar
of Texas, 1414 Colorado Street, Austin, Texas 78701.
JURISDICTION AND VENUE
4. This Court has jurisdiction over this action as
the controversy arose in Travis County, Texas, and
therefore Travis County District Courts have jurisdic­
tion and venue is proper in Travis County, Texas.
FACTS
5. Plaintiff was licensed to practice law in Texas
on April 16, 1973, under Texas State Bar Number
21718300.
6. Plaintiff practiced law for 17-years without
any grievance, complaint or incidents against his li­
cense, Plaintiff had a firm where he employed several
attorneys. On June 22,1990, Plaintiff’s law license was
suspended by an Agreed Interlocutory Judgment of
Suspension in Cause No. D17-128555-90 in The State
Bar of Texas u. Robert J. Wilson in the 17th Judicial
District Court of Tarrant County, Texas. The matter
did not involve any clients of Plaintiff or Plaintiff’s

App. 57
firm. The offense related to a personal real estate
transaction of Plaintiff. The suspension of Plaintiff’s
Texas bar license was for three years. A requirement of
the Agreed Interlocutory Judgment of Suspension was
for Plaintiff to relinquish his license and bar card to
Defendant, which Plaintiff did promptly at that time.
7. Upon entering the Agreed Interlocutory Judge­
ment of Suspension, Plaintiff’s employees entered the
firm that night to remove all client files. The following
morning, the employees began a new firm with Plain­
tiff’s client files. A lawsuit ensued regarding the client
files and in 1991 and a fine was accessed against Plain­
tiff in the above entitled case. This case was formally
dismissed by the Court in March of 2012 when Plain­
tiff paid the fine accessed.
8. In 1994, a year after the suspension of Plain­
tiff’s law license should have expired, Plaintiff alleg­
edly wrote a letter to the State Bar of Texas resigning
his membership. Plaintiff has argued with Defendant
that the letter was not authentic. Defendant refused
to address the matter and, since 1994 listed Plaintiff’s
standing with The State Bar of Texas as “resigned
pending disciplinary action.” This label is not only un­
true but defamatory.
9. Plaintiff would also show that regardless of
the authenticity of the “resignation letter,” this was al­
legedly received by Defendant after the expiration of
the suspension and therefore, would not in lieu of a dis­
ciplinary action.

App. 58
10. According to Texas State Bar Rule, Art. Ill,
Section 7 a member must complete a Voluntary Resig­
nation Request Form and well as other documents in
order to facilitate a resignation. Plaintiff never com­
pleted the requested forms and/or submitted them to
the State Bar of Texas. The only document Defendant
had was the disputed letter of resignation.
11. In 2012, Plaintiff requested Defendant, The
State Bar of Texas, certify he was in good standing in
Texas and what steps, if any, were needed to perfect
this request. Plaintiff sought to obtain his Arizona Bar
license. Defendant responded that Plaintiff needed to
pay a fine and file a petition for reinstatement. Once
Plaintiff completed this process, Defendant refused
Plaintiff’s request to change Plaintiff’s standing with
the State Bar. The denial was based upon the alleged
resignation letter written sometime in 1994.
12. Plaintiff once again notified Defendant that
the undated letter was not Plaintiff’s and did not bear
Plaintiff’s authentic signature. Plaintiff requested
that Defendant investigate the authenticity of the let­
ter if it were still at issue.
13. Lacking a response from Defendant, Plaintiff
presented a follow-up letter on June 29, 2012. Defend­
ant has ignored Plaintiff’s requests and refused to in­
vestigate or determine if the 1994 letter of resignation
was authentic.
14. Plaintiff acknowledged, accepted and honor
the three-year suspension in 1991. For 24-years, Defend­
ant has been consistent that it will not even consider

App. 59
changing Plaintiff’s status of resignation “due to disci­
plinary actions”.
15. Plaintiff is unaware of any matters (settled
or unsettled) with The State Bar of Texas that would
warrant branding Plaintiff in such a harsh manner.
16. In 2017, Plaintiff announced as a candidate
for the State Senate of Arizona and was formally ap­
proved by the State of Arizona as a state senate candi­
date in Legislative District Number Two and his name
officially added to this year’s ballot for that office.
17. The Green Valley Newspaper received infor­
mation that Plaintiff had “resigned from the Texas Bar
in lieu of disciplinary action” and published the infor­
mation. The statement was damaging to Plaintiff’s
campaign for State Senator. The damage was proximately caused by the failure of the State Bar of Texas
to investigate Plaintiff’s requests concerning his al­
leged resignation and refusal to correct the status of
Plaintiff’s standing.
COUNT ONE DECLARATORY JUDGMENT
18. Plaintiff incorporates by reference all preced­
ing paragraphs as if fully set forth herein.
19. Plaintiff requests relief under the provisions
of the Texas Civil Practices & Remedies Code, Section
37.02(b), known as the Texas Uniform Declaratory Judg­
ment Act, in which the District Court of Travis County,
Texas has jurisdiction to bear and determine this con­
troversy.

App. 60
20. Plaintiff requests that the Court make a fact
finding that the alleged letter of resignation (Exhibit
#1) used and relied on by the State Bar of Texas to sus­
pend Plaintiff’s law license was in fact a forgery and
was not authored by, consented to, or mailed by Plain­
tiff to the State Bar of Texas.
21. Plaintiff requests the Court order Defendant
to disregard the letter of resignation and determine
that the State Bar of Texas has no other legitimate
grounds to continue to suspend the Texas law license
of this Plaintiff.
22. Plaintiff requests the Court order that law li­
cense to Plaintiff be reinstated and order that Plaintiff
is certified of good standing with the Texas State Bar.
23. Strictly in the alternative, Plaintiff requests
the Court order that Plaintiff’s status be changed to
“inactive” and Plaintiff is entitled to a certificate of
good standing with the Texas State Bar.
COUNT TWO DAMAGES
24. Plaintiff incorporates by reference all preced­
ing paragraphs as if fully set forth herein.
25. Plaintiff has been damaged by the failure
and refusal of Defendant to make a determination of
whether Plaintiff resigned from the State Bar of Texas.
26. Defendant caused Plaintiff intentional or neg­
ligent infliction of mental anguish and emotional dis­
tress, humiliation, embarrassment, anxiety, damages

App. 61
to reputation, personal injuries and other damages by
Defendant’s failure to do its duties.
27. Defendant’s acts and failures were done in­
tentionally and maliciously or recklessly and were
wanton, deliberate, overt, dishonest, and oppressive,
and made with an evil mind and motive and in con­
scious disregard of the rights of Plaintiff causing Plain­
tiff damages in seeking a seat in the State Senate in
Arizona. Defendant had notice that Plaintiff was going
to seek an official elective office in Arizona and re­
quired Plaintiff’s status corrected.
28. Plaintiff is entitled to up to $99,000.00 dol­
lars in actual damages, plus punitive damages to be
determined for the intentional wrongful acts or reck­
less acts of Defendant in this matter.
29. Plaintiff requests all relief available under
Texas law and for his court costs and chargeable ex­
penses.
PRAYER
Plaintiff, Robert J. Wilson, prays for a Declaratory
Judgment as described above against Defendant, the
State Bar of Texas.
Plaintiff, Robert J. Wilson, prays for consequential,
general and special damages in a reasonable and ap­
propriate amount, as may be proven at trial.

App. 62
Plaintiff, Robert J. Wilson, prays for exemplary
and/or punitive damages as may be proven at trial in
a reasonable and appropriate amount.
Plaintiff, Robert J. Wilson, prays for recovery of
reasonable costs and expenses in prosecuting this mat­
ter and for such and further relief as the Court deems
just and proper.
Isl Robert J. Wilson
ROBERT J. WILSON
2151 N. Avenida Tabica
Green Valley, AZ 85614
Tel: (520) 982-1658
Email: Bobbysuisa@gmail.com
Plaintiff, Pro Se

App. 63
EXHIBIT # 1
James M. McCormack
General Counsel
The State Bar of Texas
P.O. Box 12487
Capitol Station
Austin TX 78711
Re: The State Bar Of Texas
(Vs)

Robert J. Wilson
Bar No. 21718300
Dear Mr. McCormack:
I hereby submit my resignation as a member of
long standing of The State Bar of Bar No. 21718300.
I have been a member since 1973, and I must re­
port that I no longer desire to be a member of an or­
ganization that engages (at least in my case) in a policy
of persecution, rather than to protect the interests of
the general public. Your office’s handling of the case is
not something The State Bar should be proud of. I have
dismissed my Counter Claim against The State Bar,
but since I no longer am a resident of Texas, I may re­
file the matter in Federal Court. My decision is not yet
firm on this.
Article 10, Section 14 of The State Bar Rules
(Vernon’s An. Gov’t Code) clearly states that no district
court lawsuits shall be filed against an accused lawyer
until he has received “reasonable notice and oppor­
tunity to respond” before the appropriate grievance
committee. These constitutional safeguards were denied

App. 64
to me by The State Bar for the most part and I have
been lawsuited to death by your office, causing me to
lose everything I worked for for twenty years in Texas.
I no longer intend to return to the practice of law,
since I’ve decided life is too short to be engaged in con­
tinuing litigation with The State Bar of Texas simply
because I stood up for my rights which is obviously not
the thing to do when dealing with The State Bar of
Texas.
Yours Truly,
/s/ Robert J. Wilson
Robert J. Wilson
22 B Street SW Suite A-14
Ardmore, OK 73401-6418
Tx voice mail (817) 370-389

App. 65
EXHIBIT # 2
April 16, 2012
Delivery Confirmation
Nancy Ashcraft
State Bar of Texas
Compliance Monitor
P.O. Box 12487
Austin, Texas 78711-2487
Re: Robert John Wilson
Bar No. # 21718300
Dear Ms. Ashcraft,
I requested the Supreme Court of Texas supply me
with a complete copy of my so-called resignation file.
I enclose herewith a copy of what I recently re­
ceived from their office, in case you do not have access
to those records. Several matters immediately caught
my attention, to wit:
(1) My so-called letter of resignation, which is un­
dated (but shows a file mark of July 1994)
does not bear my signature, anyone familiar
with my signature, such as Bar Counsel Mary
F. Klapperich, would have known immedi­
ately that was not my signature. Therefore,
she filed a false document with the Supreme
Court. I did mail her a letter in which I voiced
my decision to resign from the State Bar, but
my reason was because I was convinced she
was in conspiracy with my two former lawyer
associates (Keith Harrison and Kristina Bline)
to run me out of the law business.

App. 66
(2) Furthermore, In Mary’s RESPONSE OF THE

CHIEF DISCIPLANY COUNSEL TO THE
RESIGNATION OF ROBERT J. WILSON, AN
ATTORNEY she states information about a
so-called (Paragraph B). DICKSON COMPLAINT
which I had fully explained and timely an­
swered to the Johnson County Bar Associa­
tion and had never been notified that there
was any unanswered issues remaining. There
were no unprofessional acts on my behalf in
that matter. No hearings had taken place on
that matter by that Grievance Committee to
my knowledge prior to it appearing in that Pe­
tition.
(3) I had never received any correspondence from

Mary after I mailed her my “missing” letter of
resignation, so I had no notice of any further
proceedings after I mailed my missing letter.
I can only assume Mary decided to proceed with­
out any further notice to me or due process to me in
her efforts to strip me of my Bar License.
At this point I can only assume my only recourse
is to file a Request with the Supreme Court of Texas
that they reopen this matter and conduct a though in­
vestigation of the Facts and Mary’s actions in this matter.
In my letter to your office of January of this year,
I requested your office advise me of what steps I
needed to complete in order to be able to return to a
position of good standing with the State Bar of Texas
and your office replied on February 7, 2012 and said I

App. 67
needed to pay a contempt of court fine of $6,000.00 in
the 17th District Court of Tarrant County and then file
a petition for reinstatement, but when I paid that fine
of $6,000.00 in full and sent your office a Motion to Dis­
miss that Case, I have received no response from your
office.
My only desire is to be able to take the Bar Exam
in Arizona, but I understand I need to be in good stand­
ing with the Texas Bar before I can apply in my state
of residence, where I have lived since 1994.
Please address these matters so I will know how
best how to proceed.
Thank you for your considerations and coopera­
tion.
Yours truly,
Bob Wilson

App. 68
EXHIBIT # 3
Robert Wilson
2151 N. Avenida Tabica
Green Valley, AZ 85614-3779
520-240-7970
bobbysvis a@aol .com
June 29, 2012

Delivery Confirmation

Nancy Ashcraft State
Bar of Texas Compliance Monitor
P.O. Box 12487
Austin, Texas 78711-2487
Re: Robert John Wilson
Bar No. # 21718300
Dear Ms. Ashcraft,
I request that your office delete my name from the
list of licensed lawyers on the State Bar of Texas web­
site for the following reasons;
(1) It informs the general public that “I resigned
in lieu of disciplinary action”.
That is a false statement of fact, and constitutes
libel and slander to my name for the following reasons:
(a) My so-called letter of resignation, which is un­
dated, (but shows a file mark of July 1994)
does not bear my signature. Anyone familiar
with my signature, such as your former Bar
Counsel Mary F. KLapperich, would have
known immediately that was not my signa­
ture. It was not prepared by me, nor author­
ized by me, NOR MAILED BY ME. I did not
sign that letter.

App. 69
(b) Therefore, your Counsel filed a false docu­
ment with the Supreme Court. I did mail her
a letter in which I voiced my decision to resign
from the State Bar, but my reasons were be­
cause I was convinced she was working in
conspiracy with my two former associates
(lawyers: Keith Harrison and Kristina Bline)
to steal the client files I had not been compen­
sated for by them). They succeeded, with the
able assistance of the said State Bar Counsel,
in stripping me of just compensation for those
files. Obviously, she did not want the letter I
DID send her to become part of the official
State Bar proceedings and it was not part of
the Supreme Court records provided to me re­
cently when I requested a complete copy of my
file.
(c) Furthermore, In Mary’s court pleadings against
me; RESPONSE OF THE CHIEF DISCIPLANY
COUNSEL TO THE RESIGNATION OF ROB­
ERT J. WILSON, AN ATTORNEY she states
information about a so-called (Paragraph B).
DICKSON COMPLAINT which I had fully ex­
plained and timely answered before the John­
son County Bar Association and had never
been notified that there was any unanswered
issues remaining. There were no unprofes­
sional acts on my behalf in that matter. No
hearings had taken place on that matter by
that Grievance Committee to my knowledge
prior to it appearing in that Petition.
(d) I never received any correspondence from
Mary after I mailed her my “missing” letter con­
cerning my disgust and desire for resignation,

App. 70
so I had no notice of any further proceedings
after I mailed my missing letter.
I can only assume Mary decided to proceed with­
out any further notice to me in her efforts to strip me
of my Bar License.
Therefore, unless the State Bar of Texas removes
my name from their list of attorneys in the State of
Texas or removes the remark “I resigned in lieu of dis­
ciplinary action”; I will have no choice but to file a suit
for libel and slander and injunctive relief in an Arizona
Federal District Court against the State Bar of Texas,
where I have been a resident since 1994.
I will allow fifteen days for resolution of these mat­
ters before litigation begins.
I am sending a copy of this letter to the Chief Jus­
tice of the Supreme Court of Texas so they will be made
aware of these matters.
Yours truly,
Bob Wilson
Cc:
Honorable Wallace B. Jefferson
Chief Justice, Supreme Court of Texas
PO Box 12248
Austin, Texas 78711

App. 71
EXHIBIT “4”
State Bar of Texas
Management’s Discussion and Analysis (Unaudited)
May 31, 2017
Charges for Services 45%
Revenues by Source—Governmental Activities
Investment and Other Income 3%
Operating Grants and Contributions 3%
Royalty Revenue 2%
Membership Dues 47%
Membership dues continues to be the primary source
of revenue for the State Bar. Total membership dues
collections for fiscal year 2017 were $20,299,356 com­
pared to $20,073,248 in the prior fiscal year. The State
Bar anticipates a slowing growth in the revenue from
dues because the projected number of licensed attor­
neys will likely stabilize over the next five years.
TexasBarCLE charges for services remain strong at
$13,591,618 for fiscal year 2017 compared to $13,779,371
in revenue from fiscal year 2016. The continuing legal
education offered by TexasBarCLE has continued to pro­
vide stable income for the Bar to supplement other stra­
tegic goals that may not generate revenue, but provide a
valuable service to lawyers and the public of the State
of Texas. Other charges for services include Minimum
Continuing Legal Education. (MCLS) fees, Texas Board
of Legal Specialization fees and Bar Journal fees.

App. 72
EXHIBIT K
Sec. 81.106. IMMUNITY, (a) The unauthorized prac­
tice of law committee, any member of the committee,
or any person to whom the committee has delegated
authority and who is assisting the committee is not li­
able for any damages for an act or omission in the
course of the official duties of the committee.
(b) A complainant or a witness in a proceeding
before the committee or before a person to whom the
committee has delegated authority and who is assist­
ing the committee has the same immunity that a com­
plainant or witness has in a judicial proceeding.
Added by Acts 1991,72nd Leg, Ch. 795, and Sec. 26, eff.
Sept. 1,1991.

App. 73
EXHIBIT L
[SEAL]
P. O. BOX 12487, CAPITOL STATION,
AUSTIN, TEXAS 78711,
(512)463-1453 or 1-800-204-2222
Office of the General Counsel
July 26,1994
CMRRR #384 628 912
AND REGULAR MAIL
Mr. Robert J. Wilson
25 B Street, S.W., Suite A-14
Ardmore, OK 73401-6418
Re: The State Bar of Texas v. Robert J. Wilson; No
40114; In the 43rd District Court of Parker
County, Texas
Dear Mr. Wilson:
I am in receipt of a copy of your letter to Mr. James
McCormack in which you submitted your resignation
from the practice of law.
Please be advised that, pursuant to Rule 10.02 of the
Texas Rules of Disciplinary Procedure, I have prepared
a response to your resignation. I have enclosed a copy.
Although I have submitted both your resignation and
our response to the Supreme Court of Texas, I doubt
the Supreme Court will accept your resignation im the
form in which you have submitted it. Therefore, I have
enclosed a form resignation for you to sign and forward
to me in the enclosed, self-addressed and stamped

App. 74
envelope. The Supreme Court will not accept your res­
ignation without the submission of your license and
bar card, or an affidavit stating they are lost.
Please be advised that until the Supreme Court ac­
cepts your resignation and issues its order accepting
your resignation, the lawsuit currently pending in Par­
ker County will remain active. Once I have received a
signed copy of the Order accepting your resignation, I
will file a notice of nonsuit in the Parker County case.
As a friendly reminder, I have just learned that the
Mandate from the contempt cause of action was issued
by the Court of Appeals on June 6, 1994. You. should
have surrendered to the Sheriff of Tarrant County to
begin serving your sentence for contempt of court by
June 16,1994. Apparently you have not done so. I urge
you to Surrender to the Sheriff of Tarrant County im­
mediately.
If you have any questions regarding this matter, please
let know.
Sincerely,
/s/ Mary F. Klapperich
Mary F. Klapperich
Assistant General Counsel
MFK/db
Enclosures
cc: James M. McCormack, General Counsel, State
Bar of Texas

App. 75
Hon. James Mullins, 43rd District Court, Parker
County Courthouse, P.O. Box 340, Weatherford,
Texas 76086-0340
Hon. Fred Davis, 17th District Court, 401W.
Belknap St., Fort Worth, Texas 76196

App. 76
EXHIBIT M
IN THE
SUPREME COURT OF TEXAS
IN THE MATTER OF

§

ROBERT J. WILSON

§
§
§

AN ATTORNEY

Misc. No. 94-9125
ORDER
On this day came on for consideration the Motion
for Acceptance of Resignation as Attorney and Counse­
lor at Law of Robert J. Wilson. Also before the Court is
the Response of the Chief Disciplinary Counsel to that
Motion. The Court having reviewed the Motion and Re­
sponse finds each to be legally sufficient and, being ad­
vised that such resignation is in the best interest of the
public and of the legal profession, concludes that the
following Order is appropriate.
It is ORDERED that the law license of Robert J.
Wilson, State Bar Card No. 21718300, heretofore is­
sued by this Court be, and the same is hereby cancelled
and revoked and his name be, and is hereby dropped
and deleted from the list of persons licensed to practice
law in the State of Texas. Receipt of the license and
permanent State Bar Card issued by this Court to Rob­
ert J. Wilson on or about April 16, 1973, is hereby
acknowledged.

App. 77
By the Court, en banc, in chambers, on this 18th
day of August. 1994.
/s/ Thomas R. Phillips
Thomas R. Phillips, Chief Justice
/s/ Raul A. Gonzalez
Raul A. Gonzalez, Justice
/s/ Jack Hightower
Jack Hightower, Justice
/s/ Nathan L. Hecht
Nathan L. Hecht, Justice
/s/ Lloyd Doggett
Lloyd Doggett, Justice
/s/ John Cornyn
John Cornyn, Justice
/s/ Bob Gammage
Bob Gammage, Justice
/s/ Craig Enoch
Craig Enoch, Justice
/s/ Rose Spector
Rose Spector, Justice

App. 78
EXHIBIT N
Misc. No.
IN THE
SUPREME COURT OF TEXAS
IN THE MATTER OF

§

ROBERT J. WILSON

§
§
§

AN ATTORNEY

RESPONSE OF THE CHIEF DISCIPLINARY
COUNSEL TO THE RESIGNATION OF ROBERT J.
WILSON. AN ATTORNEY
TO THE HONORABLE SUPREME COURT OF
TEXAS:
COMES NOW the Chief Disciplinary Counsel of
the State Bar of Texas on behalf of the Commission for
Lawyer Discipline, and pursuant to Rule 10.02, Texas
Rules of Disciplinary Procedure, makes this response
to the Motion for Acceptance of Resignation as Attor­
ney and Counselor at Law of Robert J. Wilson:
1.

Robert J. Wilson, Movant, is an attorney li­
censed to practice law in this State and a
member of the State Bar of Texas. His perma­
nent State Bar Card No. is 21718300. His li­
cense is currently under suspension.

2.

Movant has filed his Motion for Acceptance of
Resignation as Attorney and Counselor at
Law with this Court. Such Motion, for Resig­
nation is in lieu of disciplinary action and the
acceptance of such resignation by this Court

App. 79
is in the best interests of the public and the
profession.
3., Movant is the subject of a disciplinary action
pending in the 43rd Judicial District Court of
Parker County, Texas, under Cause No. 40114;
styled The State Bar of Texas v. Robert J.
Wilson, in which Movant is alleged to have
committed various acts of professional mis­
conduct. A detailed statement of the profes­
sional misconduct with which Movant is
charged is as follows:
A. STATE BAR COMPLAINT. Movant, Robert
J. Wilson, was suspended from the practice of law on or
about June 22,1990, after entry of an Agreed Interloc­
utory Judgment of Suspension in Cause No. D17-128,
555-90; styled The State Bar of Texas v. Robert J. Wil­
son, in the 17th Judicial District Court of Tarrant
County, Texas.
The Honorable Fred Davis of the 17th Judicial
District Court of Tarrant County, Texas, found Movant,
Robert J. Wilson, to be in contempt of the Agreed In­
terlocutory Judgment of Suspension, and entered an
Order of Contempt on December 9, 1991.
On January 7,1992, the Honorable Fred Davis en­
tered a Judgment of Suspension against Robert J. Wil­
son in Cause No. D17-128,555-90, and ordered the law
license of Robert J. Wilson suspended for a period of
three (3) years.
On April 18,1991, Robert J. Wilson entered into a
consulting and rental agreement with D. Keith

App. 80
Harrison. This agreement allowed Robert J. Wilson, a
non-lawyer during the effective dates of the agree­
ment, to receive sixty-five percent (65%) of the legal
fees collected by D. Keith Harrison.
On April 12,1991, Robert J. Wilson entered into a
consulting and rental agreement with Kristina Bline
(Dial). This agreement allowed Robert J. Wilson, a non­
lawyer during the effective dates of the agreement, to
receive sixty-five percent (65%) of the legal fees col­
lected by Kristina Bline (Dial).
Both Orders of Suspension entered against Robert
J. Wilson prohibit him from receiving legal fees, either
directly or indirectly, while under suspension.
D. Keith Harrison and Kristina Bline (Dial) termi­
nated the consulting and rental agreements on or
about February 18,1992, after learning that Robert J.
Wilson’s license to practice law was under suspension.
Upon the termination of the consulting and rental
agreements, Robert J. Wilson filed attorney fee liens on
his behalf in the following cause numbers:
a.

90-069445-92 in Tarrant County, Texas

b.

48-130674-90 in Tarrant County, Texas

c.

96-129120-90 in Tarrant County, Texas

d.

96-131998-90 in Tarrant County, Texas

e.

342-126472-90 in Tarrant County, Texas

f.

352-117430-90 in Tarrant County, Texas

g.

48-127272-90 in Tarrant County, Texas

App. 81
The attorney fee liens filed by Robert J. Wilson
against Harrison and Bline on behalf of Robert J. Wil­
son and Associates, Inc. were invalid because they
were an attempt by a non-lawyer to collect attorney’s
fees.
On September 29, 1992, Robert J. Wilson filed an
Affidavit of Inability to Give Cost Bond in Cause No.
67-1405630-92. In this cause of action, Robert J. Wil­
son’s attorney fee liens were invalidated. Wilson filed
the affidavit on behalf of himself individually, and on
behalf of Robert J. Wilson and Associates, Inc. Robert
J. Wilson therefore appeared in a representative capac­
ity for someone other than himself when representing
Robert J. Wilson and Associates, Inc. in filing the Affi­
davit of Inability to Give Cost Bond at a time when his
law license was under suspension.
The Orders of Suspension prohibit Robert J. Wil­
son from appearing in a representative capacity for
someone other than himself.
The corporation of Robert J. Wilson and Associ­
ates, Inc. is not entitled to receive attorney’s fees. The
purpose of the corporation is no longer for the practice
of law. The sole shareholder is Robert J. Wilson, a non­
lawyer who is ineligible to receive attorney’s fees, ei­
ther directly or indirectly.
From April 12, 1991 through February 18, 1992,
Robert J. Wilson, through Robert J. Wilson & Associ­
ates, Inc., accepted legal fees from D. Keith Harrison
and from Kristina Bline (Dial).

App. 82
Robert J. Wilson placed an advertisement with the
Southwestern Bell Yellow Pages for the Greater Fort
Worth Area for July 1992-1993 and for July 1993-1994.
Through these advertisements Robert J. Wilson held
himself out to others as an attorney at a time when the
Orders of Suspension prohibited him from holding
himself out to others, or using his name in conjunction
with the words “attorney” “attorney at law,” “counselor
at law,” or “lawyer.”
Robert J. Wilson, while under a Judgment of Sus­
pension, appeared in the Northern District of Texas
Bankruptcy Court, Dallas Division, on September 1,
1992, in the capacity as an attorney for William and
Patsy Hatfield.
Robert J. Wilson continued to accept attorney’s
fees while under the Orders of Suspension, in Cause
No. 490-4333300-MT-13 in the U.S. Bankruptcy Court
for the Northern District of Texas, Fort Worth Division.
These fees were paid by Margaret Logan Brice. Robert
J. Wilson received a total of $712.90, and payment was
accepted by Robert J. Wilson, on behalf of Robert J. Wil­
son and Associates, Inc. as late as June 26,1992.
In connection with the STATE BAR COM­
PLAINT, Movant, Robert J. Wilson, has com­
mitted professional misconduct in violation of
Rules 5.05(1), 8.04(a)(1), 8.04(a)(3), 8.04(a)(7),
8.04(a)(8), and 8.04(a)(10) of the Texas Disci­
plinary Rules of Professional Conduct, and Ar­
ticle X, Section 7 of the State Bar Rules.

App. 83

r

B. DICKSON COMPLAINT. On or about June
3,1989, Mr. L. D. Dickson and his wife Kettle M. Dick­
son (now deceased) entered into an employment con­
tract with Robert J. Wilson to try to get Dickson’s
insurance company to fix a storm damaged roof. Re­
spondent filed suit against Associated Lloyds Insur­
ance Company in Cause No. 352-125254-90 in the
352nd Judicial District Court of Tarrant County, Texas,
styled L. D. Dickson v. Associated Lloyds Insurance
Company.
Negotiations resulted in a Ten Thousand Dollar
($10,000.00) settlement. The insurance company is­
sued a check in the amount of $10,000.00 on June 20,
1990, payable to L. D. Dickson and Hattie M. Dickson
and Colonial Savings & Loan Association and Robert
J. Wilson, Attorney at Law. The settlement check was
deposited in the account of Robert J. Wilson, Attorney
at Law at the First National Bank of Burleson on or
about July 11,1990.
L. D. Dickson and Robert J. Wilson, as attorney
for L. D. Dickson, signed a Release and Settlement of
Claims on June 22, 1990. On or about July 10, 1990,
the Court signed an Agreed Order of Dismissal signed
by Robert J. Wilson, attorney for Plaintiff and by Marc
H. Fanning, Attorney for Defendant. To date, Respond­
ent has not paid Dickson his settlement of approxi­
mately Six Thousand Five Hundred Dollars
($6,500.00).
In connection with the DICKSON COM­
PLAINT, Movant, Robert J. Wilson, has

App. 84
committed professional misconduct in viola­
tion of Rules 1.14(a), 8.04(a)(1), 8.04(a)(3),
8.04(a)(7), 8.04(a)(8), and 8.04(a)(10) of the
Texas Disciplinary Rules of Professional Con­
duct, and Article X, Section 7 of the State Bar
Rules.
WHEREFORE, the Chief Disciplinary Counsel
prays that the Honorable Supreme Court of Texas will
accept the resignation of Movant as an attorney and
counselor at law in this state by approving the Order
submitted herewith and for such other and further re­
lief as may be justified.
Respectfully submitted,
James M. McCormack
General Counsel
Mary F. Klapperich
Assistant General Counsel
Office of General Counsel
State Bar of Texas
P.O. Box 12487
Austin, Texas 78711
512/463-1463
512/477-4607 (FAX)
/s/ Mary F. Klapperich
Mary F. Klapperich
State Bar Card No. 11550700
ATTORNEYS FOR PETITIONER

App. 85
CERTIFICATE OF SERVICE
This is to certify that the above and foregoing Re­
sponse of the Chief Disciplinary Counsel has been
served on Respondent, Robert J. Wilson, at 25 B Street,
S.W., Suite A-14, Ardmore, OK 73401-6418, by delivery
of a true copy to him by certified mail, return receipt
requested, by depositing same, enclosed in a postpaid,
properly addressed wrapper in an official depository
under the care and custody of the United States Postal
Service on the 26th day of July. 1994
/s/ Mary F. Klapperich
Mary F. Klapperich
IN THE SUPREME COURT OF
THE STATE OF TEXAS
CERTIFICATION OF THE GENERAL COUNSEL
OF THE STATE BAR OF TEXAS REGARDING
ROBERT J. WILSON
TO THE HONORABLE SUPREME COURT OF
TEXAS:
I, James M. McCormack, General Counsel of
the State Bar of Texas, in accordance with Part 10.02
of the Texas Rules of Disciplinary Procedure, hereby
certify that there is currently pending a disciplinary
action against Robert J. Wilson, State Bar Card No.
21718300, styled The State Bar of Texas v. Robert J.
Wilson. No. 40114, in the 43rd Judicial District Court,
Parker County, Texas.

App. 87
James M. McCormack
General Counsel
The State Bar of Texas
P.O. Box 12487
Capitol Station
Austin TX 78711
Re: The State Bar Of Texas
(Vs)
Robert J. Wilson
Bar No. 21718300
Dear Mr. McCormack:
I hereby submit my resignation as a member of
long standing of The State Bar of Texas, Bar No.
21718300.
I have been a member since 1973, and I must re­
port that I no longer desire to be a member of an or­
ganization that engages (at least in my case) in a policy
of persecution, rather than to protect the interests of
the general public. Your office’s handling of the case is
not something The State Bar should be proud of. I have
dismissed my Counter Claim against The State Bar,
but since I no longer am a resident of Texas, I may re­
file the matter in Federal Court. My decision is not yet
firm on this.
Article 10, Section 14 of The State Bar Rules
(Vernon’s An. Govt. Code) clearly states that no district
court lawsuits shall be filed against-an accused lawyer
until he has received “reasonable notice and oppor­
tunity to respond” before the appropriate grievance
committee. These constitutional safeguards were de­
nied to me by The State Bar for the most part and I

App. 88
have been lawsuited to death by your office, causing me
to lose everything I worked for for twenty years in
Texas.
I no longer intend to return to the practice of law,
since I’ve decided life is too short to be engaged in con­
tinuing Litigation with The State Bar of Texas simply
because I stood up for my rights which is obviously not
the thing to do when dealing with The State Bar of
Texas.
Yours Truly,
/s/ Robert J. Wilson
Robert J. Wilson
25 B Street SW Suite A-14
Ardmore, OK 73401-6418
Tx voice mail (817) 370-3895
cc: Executive Director
State Bar of Texas
P.O. Box 12487
Capitol Station
Austin, TX 78711
Mary F. Klapperich
Asst. General Counsel
State Bar of Texas
P.O. Box 12487
Capitol Station
Austin, TX 78711
Judge James O. Mullins
43rd District Court
Parker County Courthouse
P.O. Box 340
Weatherford TX 76086-0340

App. 89
Judge Fred Davis
17th District Court
401W. Belknap
Fort Worth TX 76196

/

App. 90
EXHIBIT O
No. 03-18-00649-CV
In The Court ofAppeals
Third District of Texas
Austin, Texas
THE STATE BAR OF TEXAS,
APPELLANT
V.
ROBERT J. WILSON,
APPELLEE
Appealed from the 200th District Court
Of Travis County, Texas
Honorable Don R. Burgess, Judge Presiding
BRIEF OF APPELLEE
ROBERT J. WILSON
i

TO THE HONORABLE COURT OF APPEALS:
Appellee, Robert J. Wilson, submits his responsive
brief. Robert J. Wilson will be referred to as “Wilson”
and Appellant will be referred to as “The State Bar.”
This brief designates record references as CR (clerk’s
record) and App. (appendix). References to rules are

App. 91
references to the Texas Disciplinary Rules of Profes­
sional Conduct 1 or the Texas Rules of Disciplinary
Procedure 2 or Texas Rules of Appellate Procedure 3
unless otherwise noted.
ARGUMENT AND AUTHORITIES
This appeal is of fundamental importance to the
future of the legal relationship that exists between the
State Bar and its mandatory members, the practicing
lawyers of Texas.
Assuming the truth of Wilsons’ plead allegations
(CR at 4-9) and Wilson’s version of the wrongful harm
caused by the State Bar’s action in submitting Wilson’s
false and misleading Motion of Resignation to the Su­
preme Court of Texas in non-compliance with the State
Bar’s own Rules of Disciplinary Procedure that led to
his disbarment and the State Bar’s refusal to admit
their own mishandling of Wilson’s case and correct
their malfeasance, the State Bar is now trying to hid
behind a non-existence theory of immunity from Wil­
son’s lawsuit. The lines of battle have been drawn and
the Texas Appellate Court has been handed a major
and far-reaching decision to determine.
The State Bar’s three points of error raised in its
Statement of Issues basically contends the State Bar
1 Reprinted, in TEX. GOV’T CODE ANN., tit 2, subtit. G. app.
A (West 2018).
2 Reprinted in TEX. GOV’T CODE ANN., tit 2, subtit. G. app.
A-l (West 2018).

App. 92
enjoys immunity from suit and that Wilson’s lawsuit
does not qualify as an exception to the Texas Tort
Claims Act requirements.
Wilson responds to all of the State Bar’s points of
error collectively hereunder since the issues are now
clearly drawn and the focus of this appeal is whether
or not the State Bar of Texas is entitled to sovereign or
governmental immunity by statute or case law.
i

Wilson contends the State Bar is bound by the
clear provisions of its enabling act, the State Bar Act,
and it was never intended by the Texas Legislature to
give the State Bar immunity from law suits, but only
to protect the officials of the State Bar from personal
liability. (App. 1&2 Tex. Gov. Code, tit.2, Chapter 81).
Since its creation, the State Bar could always sue
and be sued in its own name. It is a public corporation
(App.l) and is totally self-supporting and does not cre­
ate any liability or debt obligations for the state.
(App.l, Sect. 81.017).
Wilson’ lawsuit (App.4-9) contends the State Bar
did not comply with its own rules and requirements
that Wilson prepare and file with the Supreme Court a
Motion for Resignation, which document requires more
information than was submitted in addition to his dis­
puted undated letter of resignation. Wilson was in ef­
fect; disbarred without notice or opportunity to
participate, which clearly deprived Wilson of due pro­
cess of law. (CR at 4-9) In re Ruffalo. 390 U.S. 544
(1968) - which states that State disbarment actions
must afford due process. See also, Tex. Const., Article

App. 93
I, Section 19, and the 14th Amendment to the U.S. Con­
stitution on due process requirements.
The State Bar does not qualify as a “government
unit” as described in Tex. Civil Prac. & Remedies Code,
tit.5, Section 101.001(3) [App.3].
The State Bar, even if it is a government unit, was
certainly guilty of “non performance” of an act that
damaged Wilson because the State Bar did not follow
their own Rules of Disciplinary Procedure. (Section
10.01-10.05)[App.4],
The State Bar’s legal counsel, now deceased, even
voiced doubt of her handling of the Motion for Resig­
nation and its sufficiency. (CR at 89) A state officials’
acts are not acts of the state if illegal or unauthorized,
Fed. Sign 951.S.W. 2d 404, 465 (Tex. 1997).
Texas Courts looks to the nature, purpose and
powers in determining if the entity is a governmental
entity that will enjoy sovereign or governmental im­
munity. Ben Bolt 212 S.W.3D 323, 326-28 (Tex. 2006).
The Texas legislature is best positioned to abro­
gate sovereign immunity because that is their jurisdic­
tion in order to protect their policymaking function.
Wasson Interests Ltd. V. City of Jacksonville. 489 S.W.
3d. 427 (Tex. 2018)
In 2013 the Texas Sunset Commission Report
(App.5) of the State Bar noted that organization was
operated as a professional association working under
the Supreme Court and legislature oversight. It also

App. 94
revealed the State Bar had need for improvement in
core functions. (App.5).
The State Bar’s response to their own “Motion to
Resign,” filed on behalf of Wilson with the Supreme
Court failed to disclose to the Supreme Court that Wil­
son’s probated criminal case, which did not involve any
of his clients, had been formally dismissed by that
court in March of 1992. (App.6) Thereby misleading the
Supreme Court into believing Wilson was a convicted
felon.
The cases submitted in their Brief by the State
Bar are not in point with this particular and unusual
fact situation, and are not therefore controlling. Wilson
has cited in his Response to the State Bar Plea to the
Jurisdiction (CR at 26-31) those cases that he deems
relevant to this controversy.
If the State Bar’s Rules of Conduct are to remain
fairly enforced, this court is requested to address the
State Bar’s deceased counsel behavior in misleading
the Texas Supreme Court into believing that Wilson
had submitted a Motion to Resign and thereby she vi­
olated an important rule of conduct for Texas lawyers;
“Making false statements and misrepresentation of
facts to the Supreme Court.”
Therefore, the trial court clearly saw the injustice
involved in this case and saw the State Bar’s Plea to
the jurisdiction for what it was, a failure to carry out
their responsibility to Wilson under their own rules.

App. 95
PRAYER
The State Bar does not enjoy any form of immun­
ity when sued by one of its former or current members
for a Declaratory Judgment and/or damages in tort
and the trial court was correct and his Order should
not be reversed or amended.
RESPECTFULLY SUBMITTED:
ROBERT J. WILSON
APPELLEE PER SE
2151 N. AVENIDA TABICA
GREEN VALLEY, AZ 85614
520.982.1658
bobbysvisa@gmail.com

